TaN |

ome  CQCKLE

: E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B tiefs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-975

CENTER FOR BIOLOGICAL DIVERSITY, ANIMAL
LEGAL DEFENSE FUND, DEFENDERS OF WILDLIFE,
AND SOUTHWEST ENVIRONMENTAL LAW CENTER,

Petitioners,
v.
U.S. DEPARTMENT OF HOMELAND SECURITY AND

CHAD WOLF, ACTING SECRETARY OF THE U.S.

DEPARTMENT OF HOMELAND SECURITY,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF DR. DENI J.
SEYMOUR, RICK AND SANDY MARTYNEC, GAYLE HARTMANN, DR. PAULR. AND DR.
SUZANNE FISH, AND ARCHAEOLOGY SOUTHWEST AS AMICI CURIAE IN SUPPORT OF
PETITIONERS in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point

for the footnotes, and this brief contains 5952 words, excluding the parts that are exempted by
Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 5th day of March, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

Aon erent 1, /) draw he, Chk
My Comm, Exp. September 5, 2023 oar tent eee

Notary Public (7 Affiant

    

39510
